TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Eliminating the Automatic Mailing of Tax
                    Packages Achieved Significant Savings,
                   Although Some Taxpayers Were Burdened



                                       December 13, 2011

                              Reference Number: 2012-40-008




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


ELIMINATING THE AUTOMATIC MAILING                       The IRS captured costs and savings associated
OF TAX PACKAGES ACHIEVED                                with the elimination of tax package mailings.
SIGNIFICANT SAVINGS, ALTHOUGH                           However, it did not document all calculations
SOME TAXPAYERS WERE BURDENED                            and sources or validate and consider all costs
                                                        and savings.
                                                        Eliminating individual tax package mailings
Highlights                                              increased the burden for a number of taxpayers,
                                                        including those who complained they could not
Final Report issued on                                  locate the forms they needed or did not know
December 13, 2011                                       which forms to use. It also caused about
                                                        6 million taxpayers to spend an additional
Highlights of Reference Number: 2012-40-008             1.5 million hours to obtain tax forms. The IRS
to the Internal Revenue Service Commissioner            did not capture all the comments and complaints
for the Wage and Investment Division.                   received by the various sources as part of a
                                                        long-term strategy to monitor taxpayer burden.
IMPACT ON TAXPAYERS
                                                        WHAT TIGTA RECOMMENDED
Part of the IRS’s mission is to help taxpayers
meet their tax responsibilities. To assist              TIGTA recommended that the IRS develop a
taxpayers, the IRS mailed forms with                    process to ensure savings and cost data related
instructions and publications to individual and         to the future elimination or reduction of mailing
business taxpayers. However, in response to             tax products are current and reliable. In
the continued increase in electronic filing and to      addition, a formal strategy should be developed
save postage and publishing costs, the IRS              and documented to ensure that publishing and
discontinued the mailing of tax packages in             postage costs are continually evaluated and cost
Fiscal Year 2011.                                       and savings calculations are documented and
                                                        validated.
WHY TIGTA DID THE AUDIT
                                                        The IRS agreed with the recommendations and
This audit was initiated to assess the                  developed a process to ensure information
implementation of the IRS’s strategy to eliminate       leading to the elimination and reduction in the
or reduce the mailing of tax products, beginning        mailing of the remaining two tax packages is
with Tax Year 2010. This included the IRS’s             complete, current, and reliable. In addition, it
efforts to monitor cost savings and the impact on       developed strategies to ensure it continually
tax compliance and taxpayer burden. This is a           evaluates costs, implements efficiencies, and
follow-up review to a prior TIGTA report.               evaluates taxpayer burden.
WHAT TIGTA FOUND                                        The IRS did not agree with TIGTA’s outcome
                                                        measure related to the first recommendation. It
As of August 2011, TIGTA determined the IRS
                                                        agreed with TIGTA’s methodology for calculating
saved approximately $14.19 million by not
                                                        the average cost per tax package, but believes
mailing Tax Year 2010 tax packages. The IRS
                                                        TIGTA should have multiplied the average costs
estimated that as of July 27, 2011, it had saved
                                                        by a 10-year trending estimate in volume
about $8.25 million. However, TIGTA
                                                        decreases to calculate the average percentage
determined the IRS overestimated its postage
                                                        decrease for individual tax packages. TIGTA
and printing savings by $2.08 million and did not
                                                        used the formula first provided by the IRS to
include $8.02 million realized by processing
                                                        calculate total savings, but used updated bid
more tax returns electronically. In addition, the
                                                        prices for the average cost per tax package.
data the IRS used to identify taxpayers who
                                                        The IRS did not provide its own estimate of the
would have received a Tax Year 2010 tax
                                                        cost savings using the 10-year trending estimate
package and notify them they would not be
                                                        in volume decreases.
receiving one were inaccurate.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             December 13, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Eliminating the Automatic Mailing of Tax
                              Packages Achieved Significant Savings, Although Some Taxpayers
                              Were Burdened (Audit # 201140041)

 This report presents the results of our review to assess the implementation of the Internal
 Revenue Service’s strategy for the elimination or reduction of mailing tax products to individuals
 and businesses beginning with Tax Year 2010. This included the Internal Revenue Service’s
 efforts to monitor cost savings and the impact on tax compliance and taxpayer burden. This was
 a follow-up review to a prior Treasury Inspector General for Tax Administration report.1 This
 audit is included in our Fiscal Year 2012 Annual Audit Plan and addresses the major
 management challenge of Achieving Program Efficiencies and Cost Savings.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
  Treasury Inspector General for Tax Administration, Ref. No. 2011-40-025, Publishing and Mail Costs Need to Be
 More Effectively Managed to Reduce Future Costs (February 2011).
                   Eliminating the Automatic Mailing of Tax Packages Achieved
                   Significant Savings, Although Some Taxpayers Were Burdened




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Significant Savings Were Achieved by Not Mailing
          Tax Packages, but Steps Need to Be Taken to Ensure
          Data Are Complete and Accurate ................................................................. Page 4
                    Recommendation 1:........................................................ Page 8

          Eliminating the Automatic Mailing of Individual Tax
          Packages Affected Eight Percent of All Taxpayers Who
          Filed Individual Tax Year 2010 Returns ..................................................... Page 8
          A Long-Term Strategy Is Still Necessary to Ensure Cost
          Savings, Voluntary Compliance, and Taxpayer Burden
          Are Continually Evaluated in a Consistent Manner ..................................... Page 12
                    Recommendation 2:........................................................ Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Outcome Measure ................................................................ Page 18
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
            Eliminating the Automatic Mailing of Tax Packages Achieved
            Significant Savings, Although Some Taxpayers Were Burdened




                             Abbreviations

e-file(d)             Electronically-file(d)
IRS                   Internal Revenue Service
PPBR Task Force       Printing and Postage Budget Reduction Task Force
TIGTA                 Treasury Inspector General for Tax Administration
                Eliminating the Automatic Mailing of Tax Packages Achieved
                Significant Savings, Although Some Taxpayers Were Burdened




                                            Background

The Internal Revenue Service (IRS) mission includes helping taxpayers understand and meet
their tax responsibilities as well as helping them stay compliant with tax laws. For taxpayers
who traditionally file their tax returns via paper without the assistance of tax return preparation
software or paid tax return preparers, this included sending them the forms, schedules, and
instructions (tax packages) they needed to file their tax returns.
However, on September 24, 2010, the IRS announced it would no longer mail certain tax
packages in order to achieve savings towards the $26 million savings outlined in the Fiscal
Year1 2011 printing and postage
budget request and to support the
President’s Going Green Campaign.
Specifically, it announced that
individual taxpayers will no longer
receive Form 1040, U.S. Individual
Income Tax Return, series paper tax
packages in the mail, and business
taxpayers will no longer receive
Form 1065, U.S. Return of
Partnership Income; Form 1120,
U.S. Corporation Income Tax
Return; and Form 1120S, U.S.
Income Tax Return for an
S Corporation, paper tax packages
in the mail.
In early October 2010, the IRS sent a
postcard, Notice 1400, Tax Package
Information for Individuals, to
11,232,261 individuals it determined had filed Tax Year2 2009 paper tax returns before
April 30, 2010, and did not use a paid tax return preparer or tax return preparation software. The
Notice 1400 advised the taxpayers they would no longer receive tax packages in the mail. The
IRS also sent a postcard, Notice 1400-A, Tax Product Information for Forms 1065/1120/1120S


1
  A fiscal year is a 12-consecutive-month period ending on the last day of any month, except December. The
Federal Government’s Fiscal Year begins on October 1 and ends on September 30.
2
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                          Page 1
              Eliminating the Automatic Mailing of Tax Packages Achieved
              Significant Savings, Although Some Taxpayers Were Burdened



Filers, to 595,524 businesses that normally received their tax forms and publications from the
IRS.
There were various risks associated with the IRS decision to discontinue sending tax packages in
the mail. They included:
   •   Increased Taxpayer Burden – Taxpayers who need the tax products they received
       automatically in the past will have to call the IRS, visit local IRS offices called Taxpayer
       Assistance Centers, visit Tax Form Outlet Program partners such as libraries, or go to the
       IRS Internet website (IRS.gov) to obtain them.
   •   Increased Costs to the IRS – If a significant number of taxpayers call the IRS or visit a
       Taxpayer Assistance Center, the IRS will be providing the documents at a greater cost
       per document.
   •   Reduction in Tax Compliance – Taxpayers may either forget to file or decide not to file
       their tax returns if they do not receive a tax package in the mail.
The Media and Publications function of the IRS’s Wage and Investment Division is responsible
for the majority of the IRS’s publishing and distribution services—with many of the publishing
services outsourced to contracted
vendors through the Government
Printing Office. Although the Media
and Publications function administers
the publishing and distribution budget
for the majority of the IRS’s
documents, it does not control or own
any of its tax products, and the
administration of the publishing and
postal budget is affected by different
IRS business units, offices, and
functions. Each head of office
determines printing and publishing
needs of their respective areas.
In July 2010, IRS management established the Printing and Postage Budget Reduction Task
Force (PPBR Task Force) to recommend proposals to reduce printing and mail costs and lay the
foundation for long-term implementation of cost reductions for Fiscal Years 2011 and 2012.




                                                                                            Page 2
               Eliminating the Automatic Mailing of Tax Packages Achieved
               Significant Savings, Although Some Taxpayers Were Burdened



In February 2011, the Treasury Inspector General for Tax Administration (TIGTA) reported that
the IRS needed to more effectively manage printing and postage costs to reduce future costs and
recommended that the IRS:3
    1. Establish and implement a system of internal controls to ensure that savings and
       cost data related to the elimination or reduction of mailing tax products are
       current and reliable.
    2. Develop a strategy to ensure the IRS continually evaluates printing and postage
       costs. The strategy should include goals and measures, as well as steps to monitor
       the effect on taxpayer burden and compliance.
The IRS agreed, stating that its PPBR Task Force had implemented a system to ensure that
savings and cost data related to the elimination or reduction of mailing tax products are current
and reliable. In addition, IRS management stated they had developed strategies to ensure the
IRS continually evaluates printing and postage costs including a comprehensive strategy to
measure the effect on compliance and taxpayer burden.
This review was performed at the IRS Wage and Investment Division’s Media and
Publications function in Washington, D.C., and the Small Business/Self-Employed Division in
New Carrollton, Maryland, during the period April through August 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
 TIGTA, Ref. No. 2011-40-025, Publishing and Mail Costs Need to Be More Effectively Managed to Reduce
Future Costs (February 2011).
                                                                                                    Page 3
                Eliminating the Automatic Mailing of Tax Packages Achieved
                Significant Savings, Although Some Taxpayers Were Burdened




                                     Results of Review

Significant Savings Were Achieved by Not Mailing Tax Packages, but
Steps Need to Be Taken to Ensure Data Are Complete and Accurate
As of August 2011, the TIGTA determined the IRS saved approximately $14.19 million by not
mailing Forms 1040, 1065, 1120, and 1120S Tax Year 2010 tax packages to individuals and
businesses, including $7.74 million in printing and postage savings for individual tax packages
and $547,000 in printing and postage savings for Forms 1065, 1120, and 1120S tax packages.
Figure 1 shows the components of the savings and expenditures resulting from the elimination of
Tax Year 2010 individual and business tax packages.
                 Figure 1: Savings and Expenditures From Eliminating
              Tax Package Mailings for Forms 1040, 1065, 1120, and 1120S
          Forms 1040 Packages Savings                         Forms 1040 Packages Expenditures
                  (in millions)                                          (in millions)
  Printing Tax Packages                         $3.66   Contract Termination Fees                     $0.02
  Postage Costs to Mail Tax Packages            $4.08   Printing Notice 1400                          $0.27
  Quality Management Expenses Saved             $0.53   Postage Costs for Notice 1400                 $2.22
  Tax Return Processing                         $8.02

           Forms 1040 Total Savings*          $16.30         Forms 1040 Total Expenditures*           $2.50
         Forms 1065/1120/1120-S Savings                      Forms 1065/1120/1120-S Expenditures
                  (in millions)                                          (in millions)
  Printing Tax Packages                         $0.28   Printing Notice 1400-A                        $0.02
  Postage Costs to Mail Tax Packages            $0.26   Postage Costs to Mail Notices 1400-A          $0.13

              Forms 1065/1120/1120S                                    Forms 1065/1120/1120S
                      Total Savings*            $0.55                      Total Expenditures         $0.15
                         Total Savings*       $16.84                        Total Expenditures        $2.65

                                      TOTAL NET SAVINGS           $14.19
Source: TIGTA analysis of the IRS’s August 15, 2011, mail cost tracking spreadsheet, Government Printing Office
contracts, and Form 1040 series individual tax returns filed by individual taxpayers as of June 30, 2011.
 *Totals do not add up due to rounding.




                                                                                                        Page 4
                 Eliminating the Automatic Mailing of Tax Packages Achieved
                 Significant Savings, Although Some Taxpayers Were Burdened



TIGTA’s estimate of savings and costs resulting from the elimination of individual tax
package mailings
In addition to saving $8.27 million in printing, postage, and management costs, the IRS achieved
indirect savings from individual taxpayers who in the past had submitted their tax returns on
paper but electronically filed (e-filed) their Tax Year 2010 tax returns. Of 10,571,648 taxpayers
who received a Notice 1400 and filed Tax Year 2009 returns on paper, 2,952,257 (28 percent)
chose to e-file their Tax Year 2010 returns instead of filing them via paper4—saving the IRS
$3.50 per tax return, or $8.02 million.5
Not receiving a Tax Year 2010 tax package might not have been the sole reason taxpayers
switched to e-filing. They might have been using forms that in the past could not be e-filed.
They may not have had access to the Internet or tax preparation software in the past.
Nevertheless, if these taxpayers continue to e-file their tax returns, the IRS should continue to
realize similar savings in future years.
In contrast to the savings, the IRS incurred one-time expenditures of $2.5 million, such as
contract cancellation fees and the costs of printing and mailing Notices 1400, when it decided to
discontinue mailing individual tax packages. It should not have similar expenditures in the
future unless it decides to mail Notices 1400 to taxpayers again. To date, the IRS realized a total
net savings of $13.80 million by eliminating Form 1040 tax package mailings and should
continue to realize savings in the future.
TIGTA’s estimate of savings and costs resulting from the elimination of business tax
package mailings
The IRS also saved $547,000 in printing and postage costs in Fiscal Year 2011 by not mailing
Forms 1065, 1120, and 1120S Tax Year 2010 tax packages to business taxpayers. Again, if the
IRS continues to not mail these tax packages to business taxpayers, it should continue to realize
similar annual savings.
The IRS incurred one-time expenditures to mail Notices 1400-A to business taxpayers of
$148,000. To date, the IRS realized a total net savings of $399,000 by eliminating Forms 1065,
1120, and 1120S tax package mailings.




4
  Of the 11,232,261 individual taxpayers who received Notice 1400, 660,613 had e-filed their Tax Year 2009 returns
and should not have received the Notice 1400. In addition, some of these taxpayers should not have received a
Notice 1400 because they used a paid tax return preparer.
5
  It costs the IRS approximately $3.66 to process a paper-filed tax return, but only about $.17 to process an e-filed
tax return—a difference of $3.50.
                                                                                                             Page 5
                Eliminating the Automatic Mailing of Tax Packages Achieved
                Significant Savings, Although Some Taxpayers Were Burdened



Not all data used by the IRS to estimate and report cost savings were complete or
reliable
The IRS estimated that as of July 27, 2011, it had saved a net total of approximately
$8.25 million by not mailing Tax Year 2010 tax packages to individuals and businesses
including:
    •   $7.74 million by eliminating the mailing of individual Form 1040 tax packages.
    •   $516,000 by eliminating the mailing of business Forms 1065, 1120, and 1120S tax
        packages.
The IRS did not initially plan to include the additional savings it realized when more tax returns
were e-filed.
The IRS overestimated postage and printing savings by $2.08 million.6
    •   Postage savings was overestimated by $317,000.
    •   Printing savings for business tax packages was overestimated by $75,000.
    •   Printing savings for individual tax packages was overestimated by $1.69 million.7
        1. Fiscal Year 2009 contract bid prices and quantities were used instead of the Fiscal
           Year 2010 final contract costs. This did not account for changes in quantity and
           pricing, nor did it include printing contract surcharges.
        2. The calculation did not weight the tax packages by quantity when identifying the
           overall average cost per tax package. To identify the actual average printing cost per
           tax package, the calculation needed to divide the total cost for all tax packages by the
           total quantity produced.
        3. After contract modifications, surcharges, and correctly computing the average cost
           per tax package, the final contract cost to print a Form 1040 tax package dropped
           significantly to $0.326 per Form 1040 tax package, or $3.66 million, a difference of
           approximately $1.69 million.
The IRS used a control spreadsheet to track and compile the costs and savings associated with
the elimination of tax packages. However, the control spreadsheet did not document all the
methodologies or sources used to obtain costs and savings. Without complete and reliable
information, the IRS cannot make informed decisions regarding the elimination of tax package
mailings.


6
 Totals do not add up due to rounding.
7
 As of August 15, 2011, the PPBR Task Force had not finalized the control spreadsheet and may make further
modifications.
                                                                                                        Page 6
               Eliminating the Automatic Mailing of Tax Packages Achieved
               Significant Savings, Although Some Taxpayers Were Burdened



The data used to identify taxpayers meeting the Notice 1400 criteria were not
accurate
Only taxpayers who filed a Tax Year 2009 paper return without the assistance of computer
software or a paid tax return preparer should have received a Notice 1400. However:
   •   664,756 (6 percent) of 11,232,261 taxpayers who received a Notice 1400 did not meet
       these criteria. This was an unnecessary cost of $147,243.
   •   302,192 taxpayers who met Notice 1400 criteria did not receive one because they were
       not identified and included in the mailings. This may have unnecessarily burdened the
       taxpayers who were expecting but did not receive the tax packages.
Figure 2 shows the various filing methods used for Tax Year 2009 returns by the
664,756 taxpayers who unnecessarily received Notice 1400.
                        Figure 2: Tax Year 2009 Filing Methods of
                    Taxpayers Who Unnecessarily Received Notice 1400


         600,000              523,083 

         500,000 

         400,000 

         300,000 
                                           137,522 
         200,000 

         100,000                                            75          248           3,828 
                ‐
                         Self-        Used Paid     Used Tax      Used Paid    Did Not File
                       Prepared,      Preparer,     Software,     Preparer,       a Tax
                        E-Filed        E-Filed       Filed on      Filed on      Return
                                                      Paper         Paper

       Source: Our analysis of IRS Tax Year 2009 Form 1040 series individual tax returns filed by
       individual taxpayers who unnecessarily received Notice 1400.

IRS management did not make the decision to send individual taxpayers Notice 1400 instead of
tax packages until August 2010, but wanted the notices mailed to taxpayers before
September 30, 2010. This gave the PPBR Task Force only one month to identify the taxpayers
who should receive Notice 1400, generate the notices, and mail the notices. As a result, the
PPBR Task Force did not document the criteria it used to extract the taxpayer information used
to send the notices, nor was it able to validate the data.

                                                                                                    Page 7
              Eliminating the Automatic Mailing of Tax Packages Achieved
              Significant Savings, Although Some Taxpayers Were Burdened



The IRS initiated a communication strategy to notify the public it would no longer be mailing tax
packages to individual taxpayers. The plan included several strategies to notify taxpayers of the
IRS’s decision to discontinue mailing individual tax packages, including creating news press
releases and sharing it with external stakeholders, publishing articles on IRS.gov, creating a
YouTube video, and contacting various stakeholder groups like the American Institute of
Certified Public Accountants and the American Association of Retired Persons.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should develop a
process to ensure that savings and cost data related to the current and future eliminations or
reductions of mailing tax products are complete, current, and reliable. This includes
documenting the methodologies and sources used to obtain costs and savings data.
       Management’s Response: IRS management agreed with this recommendation.
       Based on lessons learned during the most recent Printing and Postage Budget Reduction
       effort, the IRS has developed a process to ensure that information leading to the
       elimination and reduction in mailing of the remaining two tax packages is complete,
       current, and reliable. The IRS has documented the methodologies and assumptions used.
       Office of Audit Comment: The IRS did not agree with our outcome measure related
       to this recommendation. It agreed with our methodology for calculating the average cost
       per tax package, but believes we should have multiplied the average costs by a 10-year
       trending estimate in volume decreases to calculate the average percentage decrease for
       individual tax packages. We used the same formula and methodology the IRS initially
       used to calculate the cost savings. In calculating total savings, we used updated bid
       prices for the average cost per tax package. Our outcome measure is the difference
       between the formula’s results when using correct cost figures and the results when using
       the IRS cost figures. In its response, the IRS did not provide its own estimate of the cost
       savings using the 10-year estimate in volume decreases.

Eliminating the Automatic Mailing of Individual Tax Packages Affected
Eight Percent of All Taxpayers Who Filed Individual Tax Year 2010
Returns
The elimination of tax package mailings affected about 8 percent of the approximately
133 million individual taxpayers who have, as of May 28, 2011, filed Tax Year 2010 returns. A
significant number of taxpayers who previously filed their tax returns on paper chose instead to
e-file their Tax Year 2010 returns. A small number of taxpayers who received Tax Year 2009
tax packages and who timely filed their Tax Year 2009 returns filed Tax Year 2010 extensions.
In addition, eliminating the tax package mailings increased taxpayer burden for some taxpayers
who complained they could not locate the forms needed, did not know which forms to use, or
                                                                                            Page 8
                   Eliminating the Automatic Mailing of Tax Packages Achieved
                   Significant Savings, Although Some Taxpayers Were Burdened



lived in rural areas that are not near a Taxpayer Assistance Center or Tax Form Outlet Program
partner.

Taxpayers who received a Notice 1400 were more likely to e-file and use software
or a paid tax return preparer than taxpayers who received a Tax Year 2009 tax
package
Of the 12,959,085 taxpayers who received a Tax Year 2009 tax package, 2,194,746
(16.94 percent) decided to e-file their Tax Year 2009 returns. In comparison, 2,952,257
(26.28 percent) of the 11,232,261 taxpayers who received a Notice 1400 decided to e-file their
Tax Year 2010 returns. Therefore, taxpayers who received a Notice 1400 were 55.29 percent
more likely to e-file than taxpayers who received a Tax Year 2009 tax package.
Similarly, although in smaller numbers, taxpayers who received a Notice 1400 were more likely
to use a paid tax return preparer to prepare their tax returns than taxpayers who received a tax
package in the prior year. Figure 3 shows the filing history and methods for taxpayers who
received Tax Year 2009 packages compared to taxpayers who received Notices 1400 instead of
Tax Year 2010 packages.
                      Figure 3: Tax Return Preparation and Filing Methods
                  for Taxpayers Who Received Tax Packages or Notices 1400

                                                Tax Year 2009                    Tax Year 2010
                                          Number of                       Number of                    Change in
Filing Method                            Tax Returns     Percentage      Tax Returns      Percentage   Percentage

Paper Filed, Self-Prepared                  7,937,274       61.25%            5,915,236    52.66%       -14.02%
Paper Filed, Used Paid Preparers              314,043       2.42%              326,999      2.91%       20.25%
Paper Filed, Used Tax Software                501,116       3.87%              478,521      4.26%       10.08%
E-Filed, Used Tax Software                  1,248,457       9.63%             1,859,555    16.56%       71.96%
E-Filed, Used Paid Preparers                  946,289        7.3%             1,092,702     9.73%       33.29%
Filed As Secondary Taxpayers                  325,213       2.51%              179,290      1.6%        -36.25%
Did Not File Tax Returns                    1,686,693       13.02%            1,379,958    12.29%       -5.61%

                          Totals         12,959,085         100%           11,232,261       100%
Source: Individual Master File8 Return Transaction File for Tax Year 2010 data and Wage and Investment Division
Strategy and Research function for Tax Year 2009 data.




8
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                          Page 9
                Eliminating the Automatic Mailing of Tax Packages Achieved
                Significant Savings, Although Some Taxpayers Were Burdened



Eliminating the automatic mailings of individual tax packages does not appear to
have significantly affected voluntary compliance
Of the 11,232,261 taxpayers who received a Notice 1400 in the mail, 1,379,958 (12.29 percent)
did not file a Tax Year 2010 return.9 In comparison, of the 12,959,085 taxpayers who received a
Tax Year 2009 tax package, 1,686,693 (13.02 percent) did not file a Tax Year 2009 return by
August 2010. Therefore, eliminating the mailing of individual tax packages did not appear to
cause a significant increase in noncompliance with tax obligations.
However, it may have caused an increase in the number of taxpayers who filed for extensions. A
total of 235,983 (2.10 percent) of the 11,232,261 taxpayers filed a Tax Year 2010 extension.
This is an 89 percent increase over the 124,905 (1.11 percent) Tax Year 2009 extensions filed by
the same 11,232,261 taxpayers. In comparison, overall there was a slight decrease in Tax
Year 2010 extensions for Tax Year 2010 returns from Tax Year 2009 extensions.
Of the remaining 1,143,975 taxpayers who did not file a Tax Year 2010 tax return or extension
by June 30, 2011:
     •   44,712 (3.91 percent) are deceased.
     •   670,061 (58.57 percent) appear not to have a filing requirement (based on the amount of
         income reported to the IRS).10
     •   429,202 (37.52 percent) appear to have a filing requirement. It is not yet known why
         they did not file a Tax Year 2010 return since a number of factors, including not
         receiving a tax package, could be the reason.

Some taxpayers experienced difficulties in obtaining tax forms, schedules, and
instructions
Taxpayers who did not receive Tax Year 2010 tax packages reported difficulties in obtaining
forms, schedules, and instructions. In addition to making it more difficult for taxpayers to
voluntary comply with tax laws and file their tax returns, the IRS estimated it took the average
taxpayer 15 minutes to obtain the forms they needed to file a tax return if they did not receive
them in the mail. This is about 1.5 million additional hours in taxpayer burden for the nearly
6 million taxpayers who received a Notice 1400 and still elected to file a paper tax return without
the assistance of tax return preparation software or a paid tax return preparer.




9
  As of June 30, 2011.
10
  The number of taxpayers without filing requirements is an estimate based on Tax Year 2010 income information,
taxpayer’s age, and previous filing status.
                                                                                                       Page 10
                Eliminating the Automatic Mailing of Tax Packages Achieved
                Significant Savings, Although Some Taxpayers Were Burdened



Taxpayers who ordered documents by calling the IRS or visiting a local office reported
difficulties in knowing which forms, schedules, and instructions they needed to order or use.
For those who ordered
forms, if they did not order
all of the correct
documents, they needed to
find another way to obtain
the documents or call the
IRS and wait another
10 days to receive the
additional documents.
Taxpayers who visited a
local Taxpayer Assistance
Center or Tax Form Outlet
Program partner may have
had to make another trip to
their local office.
To help ensure taxpayers received the forms, instructions, and schedules they needed, the IRS
automatically sent the applicable instructions to taxpayers who called to order forms. In
addition, the IRS is developing an interactive tool that will assist taxpayers in determining which
tax forms, schedules, and instructions they need. This tool will be available on IRS.gov.
A number of taxpayers complained to the IRS or their congressional representative
The IRS received 37 congressional inquiries, two White House inquiries, and 230 comments and
complaints from individual taxpayers on the IRS’s decision to eliminate the mailings of tax
packages. Many of these taxpayers are elderly or disabled, live in rural areas, do not have easy
access to personal computers or printers, or could not find the documents they needed at their
local post offices or libraries.
Taxpayers used several options to submit their comments and complaints to the IRS, including
submitting comments on IRS.gov. They also contacted the Taxpayer Advocacy Panel,11 which
maintains a system to track and monitor complaints. In addition, some taxpayers chose to
contact their congressional representatives who, in turn, contacted the IRS Congressional
Correspondence Office. Each congressional inquiry represented one or multiple taxpayer
complaints received in the Congressional Correspondence Office.




11
  The Taxpayer Advocacy Panel is a Federal Advisory Committee made up of volunteers representing all 50 States,
the District of Columbia, and Puerto Rico. Based on feedback from the public, Taxpayer Advocacy Panel members
are dedicated to helping taxpayers improve IRS customer service and responsiveness to taxpayer needs.
                                                                                                      Page 11
               Eliminating the Automatic Mailing of Tax Packages Achieved
               Significant Savings, Although Some Taxpayers Were Burdened



The IRS does not plan to evaluate how eliminating Forms 1065, 1120, and 1120S package
mailings affected taxpayer burden. However, it plans to estimate the effect eliminating
Form 1040 tax packages had on individual taxpayers and report the results in Fiscal Year 2012.

A Long-Term Strategy Is Still Necessary to Ensure Cost Savings,
Voluntary Compliance, and Taxpayer Burden Are Continually
Evaluated in a Consistent Manner
In February 2011, the TIGTA reported that the IRS was reducing publishing and mail costs, but
the recent reductions resulted from budget cuts rather than as part of a long-term strategy.12 In its
response to the report, the IRS stated it would develop a strategy to continually evaluate printing
and postage costs, to include goals and measures, and to include steps to monitor the effect on
taxpayer burden and compliance.
Although the IRS has tracked the costs and savings and determined the effect on taxpayer
burden, it still has not developed a strong set of internal controls to ensure the data used for all
decisions are accurate and complete. The IRS maintained a control spreadsheet to capture the
cost data monthly, but the data were not always complete, accurate, or reliable. Further, there
was no documentation to show how the costs and savings were calculated or validated.
In addition, taxpayers’ complaints and feedback relating to the elimination of the automatic
mailings of the individual tax packages were not all captured in one location to facilitate analysis
as part of a long-term strategy to monitor taxpayer burden. Doing so would allow the IRS to
determine, when possible, the best methods to alleviate taxpayer burden. For example, the IRS
could identify specific locations, such as rural areas, in which taxpayers had a particularly
difficult time obtaining their tax forms, instructions, and publications. Having this information
would allow it to ensure local libraries and other partners have the tax documents taxpayers need
to file their tax returns.
Controls should be in place to ensure the methodology used to identify and estimate costs is
documented and that all data are accurate and complete. The controls should also include
creating and maintaining records to measure total costs and to determine the effect on taxpayers.
Without these controls, the IRS cannot be assured that it is making sound business decisions.
Management will continue to encounter challenges until they develop a formal process or
strategy to continually collect cost data and assess and monitor opportunities for cost reduction
and efficiencies across functions. The IRS needs to implement sufficient controls and
procedures to ensure the methodology for the decisions are documented and that the data used
are accurate and complete. A long-term strategy should also include a plan to monitor results to


12
  TIGTA, Ref. No. 2011-40-025, Publishing and Mail Costs Need to Be More Effectively Managed to Reduce
Future Costs (February 2011).
                                                                                                   Page 12
              Eliminating the Automatic Mailing of Tax Packages Achieved
              Significant Savings, Although Some Taxpayers Were Burdened



ensure the IRS is achieving expected savings and not adversely affecting taxpayers or
compliance.

Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should develop and
document a formal strategy to gather, evaluate, and report cost and savings data associated with
the elimination of tax packages and continually evaluate publishing and postage costs for
additional savings. The strategy should ensure that all sources of information, methodologies,
and calculations are documented and validated. In addition, the strategy should include goals
and measures for future savings as well as steps to monitor how the elimination of tax packages
affects taxpayer burden and voluntary compliance. This includes analyzing taxpayer complaints
and geographic coverage of form distribution in Taxpayer Assistance Centers and Tax Form
Outlet Program partners.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS has developed strategies to ensure it continually evaluates publishing and mail costs,
       and it will continue to implement efficiencies as outlined in the IRS Strategic Plan and
       the Wage and Investment Division Operations Plan. The IRS will also continue to obtain
       the assistance of the Wage and Investment Division Research function in evaluating
       taxpayer burden as it prepares its program plans and to monitor the effects its actions
       have on taxpayer behavior.




                                                                                         Page 13
                Eliminating the Automatic Mailing of Tax Packages Achieved
                Significant Savings, Although Some Taxpayers Were Burdened



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to assess the implementation of the IRS’s strategy for the elimination
or reduction of mailing tax products to individuals and businesses beginning with Tax
Year 2010. This included the IRS’s efforts to monitor cost savings and the impact on tax
compliance and taxpayer burden. To accomplish our objective, we:
I.      Determined if the IRS effectively implemented corrective actions to install a system of
        internal controls to ensure all data used to monitor the effects of the elimination of
        business and individual tax packages are current and reliable.
        A. Identified PPBR Task Force, Wage and Investment Division Research function, and
           Small Business/Self-Employed Division Research function sources of data and
           determined if they identified and collected all relevant data.
        B. Determined how the IRS collected and controlled data to ensure they are current and
           evaluated the data validation process.
II.     Determined if the cost and savings data used to determine if the IRS is actually realizing
        savings by eliminating the mailing of tax packages are accurate.
        A. Determined if the IRS accurately calculated its total Fiscal Year1 2010 savings.
        B. Determined if the IRS calculated its total Fiscal Year 2010 costs and ensured their
           accuracy and completeness.
III.    Evaluated controls to determine if taxpayer compliance was significantly affected when
        taxpayers did not automatically receive Tax Year 2010 tax packages from the IRS.
        A. Determined if the IRS appropriately identified and notified all affected taxpayers that
           they would not receive Tax Year 2010 tax packages.
        B. Determined if taxpayers who received a Notice 1400, Tax Package Information for
           Individuals, filed their tax returns timely, filed extensions, or did not have a filing
           requirement.
        C. Calculated the number of taxpayers whose behaviors changed or that became
           noncompliant for Tax Year 2010 after not receiving Tax Year 2010 tax packages



1
 A fiscal year is a 12-consecutive-month period ending on the last day of any month, except December. The
Federal Government’s Fiscal Year begins on October 1 and ends on September 30.
                                                                                                       Page 14
              Eliminating the Automatic Mailing of Tax Packages Achieved
              Significant Savings, Although Some Taxpayers Were Burdened



           automatically from the IRS. This included determining how many taxpayers had a
           filing requirement but did not file a Tax Year 2010 return.
IV.    Evaluated controls to determine if the IRS effectively implemented corrective actions to
       continually measure the effect that the elimination or reduction of mailing tax products
       has on taxpayer burden.
       A. Identified all potential areas in which the elimination of tax product mailings could
          increase taxpayer burden.
       B. Determined how the IRS evaluated the effect the elimination of tax package mailings
          has on taxpayer burden.
       C. Determined if the IRS’s decisions regarding the elimination of tax package mailings
          are consistent with taxpayer burden analysis results.
V.     Determined if the IRS strategy to monitor cost savings and evaluate the effect the
       elimination of tax packages had on voluntary compliance and taxpayer burden allowed it
       to make sound and timely business decisions for the 2012 Filing Season.
VI.    Evaluated the expected importance of data, the quality of corroborating evidence, and
       the anticipated level of risk in relying on Individual Master File data obtained from
       Forms 1040, U.S. Individual Income Tax Return, filed by taxpayers to determine its
       suitability for use.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
practices for ensuring cost-effective methods were used during the implementation of the IRS’s
strategy for the elimination of mailings of tax packages to individuals and businesses beginning
with the 2010 Tax Year. We evaluated these controls by interviewing management, reviewing
the Internal Revenue Manual, reviewing the IRS’s efforts to monitor cost savings and the impact
on tax compliance and taxpayer burden, and analyzing cost and savings data related to the
elimination of tax packages for individuals and businesses.




                                                                                          Page 15
             Eliminating the Automatic Mailing of Tax Packages Achieved
             Significant Savings, Although Some Taxpayers Were Burdened



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Wilma Figueroa, Audit Manager
Kenneth L. Carlson, Lead Auditor
Lynn M. Faulkner, Senior Auditor
Geraldine Vaughn, Senior Auditor
Jerome Antoine, Auditor
Steven E. Vandigriff, Information Technology Specialist




                                                                                    Page 16
             Eliminating the Automatic Mailing of Tax Packages Achieved
             Significant Savings, Although Some Taxpayers Were Burdened



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Deputy Commissioner of Services, Wage and Investment Division SE:W
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Deputy Associate Chief Information Officer, Applications Development OS:CTO:AD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Research, Wage and Investment Division SE:W:S:R
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 17
                Eliminating the Automatic Mailing of Tax Packages Achieved
                Significant Savings, Although Some Taxpayers Were Burdened



                                                                                              Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $2,078,618 (see page 4).

Methodology Used to Measure the Reported Benefit:
We determined the PPBR Task Force can take additional actions to make sure a process is in
place to ensure savings and cost data related to the future eliminations or reductions of mailing
tax products are current and reliable. Specifically, the PPBR Task Force did not sufficiently
document the steps taken to test or validate its cost and savings data. As a result, it
overestimated printing and postage savings for mailing tax packages by $2.08 million. Without
complete and reliable information, the IRS cannot make informed decisions regarding the
elimination of tax package mailings.
Individual Printing Savings
The PPBR Task Force used Fiscal Year1 2009 Government Printing Office contract bid prices
and quantities for tax packages to identify an average printing cost per tax package of $0.462—
the average printing cost per tax package it projects it would have spent had the IRS printed
individual Tax Year2 2010 tax packages. The Task Force multiplied the $0.462 by the
11,079,829 Tax Year 2010 tax packages the IRS estimated it would have printed to project
printing savings of $5,118,881. Then it added $229,513 in contract surcharges to calculate a
total projected printing savings of $5,348,394.
Using the contract bid prices did not account for changes in quantity and pricing, nor did it
include contract surcharges. In addition, the IRS’s average printing cost per tax package
calculation did not weight the tax packages by quantity when identifying the overall average cost
per tax package.



1
  A fiscal year is a 12-consecutive-month period ending on the last day of any month, except December. The
Federal Government’s Fiscal Year begins on October 1 and ends on September 30.
2
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                         Page 18
                Eliminating the Automatic Mailing of Tax Packages Achieved
                Significant Savings, Although Some Taxpayers Were Burdened



To identify the actual average printing cost per individual tax package, the calculation needed to
divide the total tax package expenditures of $4,448,198 by the 13,652,107 tax packages actually
printed. This produces an average printing cost per tax package of $0.326. Multiplying this by
the 11,232,261 Notices 1400, Tax Package Information for Individuals, sent to taxpayers instead
of actual Tax Year 2010 tax packages produces a total savings of $3,661,717, or $1,686,677 less
than the PPBR Task Force projected.
Business Printing Savings
The PPBR Task Force used Fiscal Year 2009 Government Printing Office contract bid prices and
quantities for tax packages to identify an average printing cost per tax package of $0.616—the
average printing cost per tax package it projects it would have spent had the IRS printed business
Tax Year 2010 tax packages. The Task Force stated it multiplied the $0.616 by the 590,868 Tax
Year 2010 tax packages the IRS estimated it would have printed to project printing savings of
$359,263.3
Using the contract bid prices did not account for changes in quantity and pricing, nor did it
include contract surcharges. In addition, the IRS’s average printing cost per tax package
calculation did not weight the tax packages by quantity when identifying the overall average cost
per tax package.
To identify the actual average printing cost per business tax package, the calculation needed to
divide the total tax package expenditures of $369,918 by the 773,268 tax packages actually
printed. This produces an average printing cost per tax package of $0.478. Multiplying this by
the 595,524 Notices 1400-A, Tax Product Information for Forms 1065/1120/1120S Filers, sent
to taxpayers instead of actual Tax Year 2010 tax packages produces a total savings of $284,660,
or $74,603 less than the PPBR Task Force projected.
Individual Postage Savings
The PPBR Task Force used Fiscal Year 2009 Government Printing Office contract quantities and
postage costs to identify an average postage cost per tax package of $0.39—the average postage
cost per tax package it projects it would have spent had the IRS mailed individual Tax Year 2010
tax packages. The Task Force multiplied the $0.39 by the 11,079,829 Tax Year 2010 tax
packages the IRS estimated it would have printed to project postage savings of $4,321,133.
Then it added $36,858 in additional postage costs to calculate a total projected postage savings of
$4,357,991.
Using the contract bid prices did not account for changes in quantity and pricing.
To identify the actual average postage cost per individual tax package, the calculation needed to
divide the total tax package expenditures of $4,812,250 by the 13,240,173 tax packages actually

3
 The IRS control spreadsheet showed they calculated their printing savings for business tax packages by
multiplying $0.616 by 590,868 to arrive at $359,263; however, the correct computation is $363,975.
                                                                                                          Page 19
              Eliminating the Automatic Mailing of Tax Packages Achieved
              Significant Savings, Although Some Taxpayers Were Burdened



mailed. This produces an average postage cost per tax package of $0.3635. Multiplying this by
the 11,232,261 Notices 1400 sent to taxpayers instead of actual Tax Year 2010 tax packages
produces a total savings of $4,082,927, or $275,064 less than the PPBR Task Force projected.
Business Postage Savings
The PPBR Task Force contract bid prices to estimate project postage savings of $304,305.
However, using the contract bid prices did not account for changes in quantity.
To identify the actual average printing cost per business tax package, the calculation needed to
divide the total tax package expenditures of $304,305 by the 690,441 tax packages actually
mailed. This produces an average printing cost per tax package of $0.44. Multiplying this by the
595,524 Notices 1400-A sent to taxpayers instead of actual Tax Year 2010 tax packages
produces a total savings of $262,031, or $42,274 less than the PPBR Task Force projected.
Calculation for determining the outcome measure: $1,686,677 overstated individual tax package
printing savings + $74,603 overstated business tax package printing savings + $275,064
overstated individual tax package postage savings + $42,274 overstated business tax package
postage savings = $2,078,618.




                                                                                        Page 20
   Eliminating the Automatic Mailing of Tax Packages Achieved
   Significant Savings, Although Some Taxpayers Were Burdened



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 21
Eliminating the Automatic Mailing of Tax Packages Achieved
Significant Savings, Although Some Taxpayers Were Burdened




                                                       Page 22
Eliminating the Automatic Mailing of Tax Packages Achieved
Significant Savings, Although Some Taxpayers Were Burdened




                                                       Page 23
Eliminating the Automatic Mailing of Tax Packages Achieved
Significant Savings, Although Some Taxpayers Were Burdened




                                                       Page 24
Eliminating the Automatic Mailing of Tax Packages Achieved
Significant Savings, Although Some Taxpayers Were Burdened




                                                       Page 25
